         OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Audit Report




       EPA Needs to Emphasize
       Management of Earmark Grants

       Report No. 2006-P-00037 


       September 26, 2006      

Report Contributors:	            Janet Kasper
                                 Rich Howard
                                 Khadija Walker




Abbreviations

EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
                                                                                                        2006-P-00037
                      U.S. Environmental Protection Agency 	                                       September 26, 2006
                      Office of Inspector General


                      At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            EPA Needs to Emphasize Management
Past Office of Inspector          of Earmark Grants
General (OIG) audits of grants
identified problems with either    What We Found
U.S. Environmental Protection
Agency (EPA) oversight or         EPA has not managed earmark grants in accordance with Agency policy and
grantee management of             regulations. Although EPA has taken actions to improve grants management,
earmark grants. For this          additional steps need to be taken related to earmark grants. In particular, we noted
review, we looked at 17 prior
audit and investigation           that:
products of earmark grants to
determine whether, based on           •	 Some EPA employees and recipients held perceptions that since earmark
information in past reports,             grants have already been approved by Congress, the Agency had limited
EPA should take additional               control over them; and
actions to improve overall            •	 Agency policies do not provide specific options for EPA staff to follow to
management of earmark                    address concerns with earmark projects.
grants.
                                  EPA policies require that earmarks be managed the same as any other assistance
Background                        agreement. However, for earmark grants, past audits and investigations found:
A congressional earmark is a
                                      •	   Incomplete grant workplans;
portion of an appropriation
designated by Congress to be          •	   Improper accounting and financial procedures;
spent on a particular project.        •	   Noncompliance with grant terms and conditions;
We originally reported on             •	   Noncompliance with applicable laws and regulations; and
EPA’s management of                   •	   Conflicts of interest.
earmark grants in a 1996
report. We found that             EPA’s insufficient management of earmark grants over the past 10 years led the
management of earmark             OIG to question nearly $73 million in Federal grant funding, and EPA was unable
grants was not a high priority
for the Agency. Subsequently,     to identify the environmental outcomes achieved from millions of additional
we identified similar issues      Federal dollars.
with EPA’s oversight or
grantee management in              What We Recommend
17 audits and investigations
of earmarks.                      We recommend that EPA issue a memorandum emphasizing the Agency’s
                                  policies on earmark grants that identifies actions program offices can take to
For further information,          address problems encountered in awarding and overseeing earmark grants. We
contact our Office of
Congressional and Public
                                  also recommend that EPA incorporate the memorandum’s guidance into future
Liaison at (202) 566-2391.        training courses for staff that manage grants. The Agency concurred with the
                                  recommendations and plans to implement them by December 29, 2006.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2006/
20060926-2006-P-00037.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                                                                          OFFICE OF 

                                                                                     INSPECTOR GENERAL




                                       September 26, 2006

MEMORANDUM

SUBJECT:               EPA Needs to Emphasize Management of Earmark Grants
                       Report No. 2006-P-00037

TO:                    Luis A. Luna
                       Assistant Administrator for Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $115,145.

Action Required

The response to the draft report indicated recommended actions will be completed by the end of
2006. As a result, no formal response to this report is necessary, but we ask that you provide us
with the status of your corrective actions when they are completed. Please email an electronic
version of the status of corrective actions to kasper.janet@epa.gov, as well as the memos you
will be issuing to implement the corrective actions. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at 202-566-0847 or
Roderick.bill@epa.gov; or Janet Kasper, Acting Director, Assistance Agreement Audits, at
312-886-3059 or kasper.janet@epa.gov.

                                                     Sincerely,



                                                     Bill A. Roderick
                                                     Acting Inspector General
                         EPA Needs to Emphasize Management of Earmark Grants



                                    Table of Contents 


 Purpose...........................................................................................................................    1        


 Background ....................................................................................................................       1        


 Scope and Methodology................................................................................................                 1        


 EPA’s Management of Earmarks Needs Improvement...............................................                                         2        


 Perceptions of Earmarks Hinder Management ...........................................................                                 2        


 EPA Policy on Earmarks Needs Improvement ...........................................................                                  3        


 EPA Has Taken Actions to Address Earmarks ..........................................................                                  3        


 EPA’s Insufficient Management of Earmarks Has Led to Problems .........................                                               4        


         Incomplete Grant Workplans ..................................................................................                 5

         Improper Accounting/Financial Procedures ............................................................                         5

         Noncompliance with Grant Terms and Conditions ..................................................                              6

         Noncompliance with Applicable Laws and Regulations ..........................................                                 6

         Conflicts of Interest .................................................................................................       7


 Grant Mismanagement Led to Misuse of Federal Funds ...........................................                                        7        


 Conclusion .....................................................................................................................      8        


 Recommendations.........................................................................................................              8        


 Agency Response and OIG Comment .........................................................................                             8        


 Status of Recommendations and Potential Monetary Benefits.................................                                            9        




Appendices
 A     Detailed List of Reports Reviewed ........................................................................                     10    


 B     Issues Identified with Earmark Grants ..................................................................                       11    


 C     Agency Response ...................................................................................................            12    


 D     Distribution ..............................................................................................................    14

Purpose
The purpose of our audit was to provide a historical perspective of issues the Office of Inspector
General (OIG) has identified with earmark grants. Past OIG audits of grants identified problems
with either U.S. Environmental Protection Agency (EPA) oversight or grantee management of
specific earmark grants. For this review, we looked at 17 prior OIG audit and investigation
products on earmark grants to determine whether, based on information in past reports, EPA
should take additional actions to improve the overall management of earmark grants.

Background
A congressional earmark is a portion of an appropriation designated by Congress to be spent on a
particular project. It is often referred to as a “line item” with respect to EPA’s Appropriation
Acts or related reports. Agency policy indicates EPA will generally honor directions to make
assistance awards for earmarks. EPA receives nearly half a billion dollars in earmarked funds
each fiscal year, or about 6 percent of its annual budget. The majority of EPA earmarks are
administered through assistance agreements (usually grants).

OIG originally reported on EPA’s management of earmark grants in a 1996 report.1 The report
noted several problems with EPA assistance agreement management, such as oversight not being
a high priority and project officers having minimal involvement in managing grants. This led to
$5 million in questioned costs. Since then, we conducted an additional 17 audits and
investigations that found problems with earmark grants.2 Six of the 17 products found that
EPA’s oversight was a cause for recipients’ misuse of Federal funds, while 12 cited recipient
mismanagement as a cause for grant problems.

Scope and Methodology
We performed this review in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted our review from April 17 through
June 23, 2006. We identified and reviewed any OIG reports issued over the last 10 years that
addressed earmark challenges. We also reviewed results of recent OIG investigations of earmark
grants. We reviewed pertinent EPA policies, and contacted staff and managers from EPA’s
Office of Administration and Resources Management, Grants Administration Division, and
Region 3. We analyzed the findings from the reports and investigations, as well as our
subsequent discussions with Agency personnel, and compiled the information for this report.
See Appendix A for the list of the 14 reports reviewed; specifics on the 3 investigations are not
provided due to confidentiality issues.




1
  Capping Report on Audits of Congressionally Earmarked Assistance to Selected Universities, Report No. E1FBE4

04-0261-6100313, issued September 30, 1996. 

2
  For report purposes, the 17 audits and investigations will be referred to as OIG products. 



                                                      1

EPA’s Management of Earmarks Needs Improvement
While EPA has made improvements in grants management, oversight of earmarks continues to
be a challenge. Over the past 10 years, EPA did not perform adequate management and
oversight of earmark grants for two primary reasons:

   •	 Some EPA employees and recipients held perceptions that since earmark grants have
      already been approved by Congress, the Agency had limited control over them; and
   •	 Agency policies do not provide specific options for EPA staff to follow to address 

      concerns with earmark projects. 


EPA policies require that earmarks be managed the same as any other assistance agreement.
However, for earmark grants, past audits and investigations found:

    •	   Incomplete grant workplans;
    •	   Improper accounting and financial procedures;
    •	   Noncompliance with grant terms and conditions;
    •	   Noncompliance with applicable laws and regulations; and
    •	   Conflicts of interest.

EPA’s insufficient management of earmark grants contributed to grantee mismanagement,
leading the OIG to question almost $73 million in Federal grant funding in our prior reports, and
EPA was unable to identify the environmental outcomes of millions of additional Federal dollars.

Perceptions of Earmarks Hinder Management

EPA employees and recipients hold perceptions that hinder effective management of earmarks.
Some EPA staff believe earmarks are “pass-through” funds that EPA should funnel on to the
grantee. They believe the recipients are entitled to the funds. Thus, the EPA employees may not
perform required pre-award review and oversight to the extent they do for other grants. This can
also result in insufficient planning and execution of a grant project. In some instances, earmarks
resulted in projects where EPA was unable to identify the environmental benefit.

For example, in 2004, OIG reported that Region 10 grants management officials believed that
earmarks for the Alaska Village Safe Water Program were not subject to pre-award review and
post-award monitoring. Although EPA provided Alaska with $232 million in funding, the
Region believed that EPA’s goal was to provide funds for the State and grant policies did not
apply because the grants were through earmarks. The Region personnel also said they believed
earmarks did not need personnel or other resources for oversight, and their approach to
management did not have to be as thorough. They believed programmatic (non-earmark) grant
oversight needed to be more rigorous than earmark grant oversight.

EPA officials told us that grant recipients also hold the perception that earmark funding is passed
through the Agency. A Senior Resource Official stated that prospective earmark recipients’
perceptions of Federal funding often lead to problems when EPA exercises its authority in



                                                 2

awarding and managing the grants. When the Region tries to negotiate the workplans or notify
the grantees that they have to submit documents to meet statutory requirements, the recipients
respond by challenging EPA’s authority. This can result in the Region spending more time
negotiating with prospective earmark recipients, which increases the amount of resources needed
to award the funds.

The perception among EPA staff that they have little control over earmark funding affects the
quality of workplans and activities under the grants. One project officer told us that reviews of
earmark grants were limited, with grant application packages being reviewed mainly to make
certain the project funded was legally viable. Another project officer said he had participated in
the review of a recipient’s proposal prior to becoming the project officer and believed the
scientific content was suspect, and EPA had to help the recipient reword the proposal to make it
acceptable for funding. A third project officer noted difficulty in getting acceptable workplans
from earmark recipients, citing a grant including outputs but not outcomes and thus making the
environmental benefits unclear.

A Senior Resource Official said that earmarks are also a challenge because the money is
allocated to specific recipients but EPA does not get separate resources to manage the earmarks.
Consequently, resources needed to manage earmarks are taken from other priorities.

EPA Policy on Earmarks Needs Improvement
Grants Policy Issuance GPI-03-01, Attachment I, Guidance for Congressional Earmarks (Line
Items), states:

       Awards made as a result of earmarks are subject to the applicable assistance
       regulations, OMB (Office of Management and Budget) cost principles and Agency
       policies. They must be managed as any other assistance agreement.

Although EPA policy is that earmarks should be managed like other assistance agreements, it
does not provide a mechanism for project officers to voice concerns about problematic
workplans. The policy only addresses how they are to determine the statute under which to
award the grant.

EPA Has Taken Actions to Address Earmarks
Even though there is no specific guidance on earmarks, other guidance EPA recently issued
emphasizes the importance of the pre-award management of grants. In March 2005, EPA issued
Order 5700.8, EPA Policy on Assessing Capabilities of Non-Profit Applicants for Managing
Assistance Awards. The purpose of this Order was to ensure that non-profit recipients of grants
and cooperative agreements have sufficient administrative and technical capability to manage the
agreement and complete the proposed workplan. As a result of this Order, there are instances
where EPA has taken steps to stop funding for earmark recipients (see examples in box). These




                                                 3

examples show that EPA has and can exercise the authority to decline earmark funding. EPA
employees’ need to be aware that problems with earmark grants should be brought to the
attention of senior management. EPA should issue a memorandum to identify courses of action
for such instances.



                                     Example of Earmark Canceled by Region
    In 2004, Region 3 received an earmark for $745,600 for a nonprofit company. The goal of the project
    was to highlight best environmental practices in the management of golf courses and distribute the
    information to other golf course managers. EPA officials concluded that there was nothing new or
    innovative being proposed by the project. Further, in the two versions of the grant workplan that the
    applicant submitted to EPA, the EPA project officer noted significant deficiencies and concluded that
    the applicant did not have sufficient expertise to perform the work. Deficiencies included: the
    unallowable construction of a $150,000 conference facility, a lack of a clear environmental objective,
    and a contractual budget that included $275,000 for unspecified environmental improvements. After
    repeated attempts to receive an adequate application and workplan but getting no response from the
    applicant, the EPA grant award official notified the applicant that the grant would not be awarded.
    EPA also advised the staff of the congressman that provided the earmark of the grant’s termination
    status. Although the applicant was provided the opportunity to appeal the decision, the applicant did
    not do so.
                                                                                Source: EPA Region 3 documentation


                      Example of Earmark Canceled by Grants Administration Division
    In 2006, EPA returned an application for an earmark grant to perform risk assessments at a pork
    production facility because of concerns about the organization’s ability to manage the grant. Prior to
    awarding the grant, in accordance with its policy, EPA requested the applicant to submit information
    regarding its written policies and procedures and accounting systems in order to determine if they met
    Federal requirements. When the applicant was, among other things, unable to demonstrate that its
    accounting system met Federal requirements, EPA returned the application and did not award the
    earmark grant.
                                                           Source: EPA Grants Administration Division documentation




EPA’s Insufficient Management of Earmarks Has Led to Problems
Over the past 10 years, OIG work has found that EPA did not sufficiently manage earmark
grants. As a result, numerous problems occurred, such as grantees having incomplete workplans
or improper financial procedures, and grantees not complying with laws, regulations, and grant
conditions. Summaries on these issues as well as examples for each follow.3 A detailed list of
which problems applied to each OIG report or investigation is in Appendix B.




3
    The issues identified in each of these reports have been or are being resolved through the audit resolution process.


                                                             4

Incomplete Grant Workplans

In 4 of 17 OIG products, earmark recipients did not submit grant workplans that
sufficiently outlined the work needed to accomplish the project objectives. In many
cases, the EPA project officers did not perform duties EPA policies required, such as
assessing technical merit and conducting cost reviews. Examples are in Table 1:

                        Table 1: Examples of Incomplete Grant Workplans
 National Rural Water Association (2006) - The recipient received more than $70 million over
 5 years to provide training and technical assistance to rural water systems. Some of the grant
 work plans did not state how the outputs would result in obtaining the environmental outcomes
 included in the funding proposal. Therefore it was difficult to determine what environmental
 benefits, if any, would be accomplished by these grant projects.
 Alaska Village Safe Water Program (2005) - In 2004, EPA awarded $34 million in infrastructure
 grants for this program. Region 10 did not ensure the grant application contained environmental
 or public health objectives for the various projects to be funded, or provided sufficient information
 on particular projects being constructed. In addition, the Region’s review of the application prior
 to awarding the grant did not assess whether there was a reasonable chance that each project
 funded would achieve its objective(s), and whether costs were reasonable. As a result, the
 Region had no assurances that the grant money would be used efficiently and effectively.
Source: Prior EPA OIG reports


Improper Accounting/Financial Procedures

In 10 of 17 OIG products, recipients did not properly account for Federal funds. A lack
of internal controls and procedures resulted in improper billing, incomplete accounting
records, and improper Federal reimbursements to the recipients. Examples are in
Table 2:

                 Table 2: Examples of Improper Accounting/Financial Procedures
 National Association of Minority Contractors (2001) - The recipient received $750,000 in EPA
 funds to monitor States’ efforts to assist minority firms in obtaining contracting opportunities and
 perform outreach on environmental justice activities. OIG determined that the recipient’s
 personnel costs and related fringe and indirect costs of $232,610 were not properly supported
 because employee timesheets did not represent a reasonable estimate of the actual work
 performed. OIG considered $116,305 of that amount to also be ineligible. Overall, OIG
 determined the recipient owed EPA $636,069.
 Association of Metropolitan Sewerage Agencies (2004) - EPA awarded the recipient
 $1,110,000 to develop a vulnerability assessment tool for municipal wastewater treatment
 facilities. Once the grant was received, the recipient violated a number of procurement and
 financial accounting requirements including: (1) awarding a contract without competition,
 (2) drawing down EPA funds in advance of the actual cash need, (3) not submitting any of its
 Reports of Federal Cash Transactions (SF-272) within 15 calendar days as required, (4) not
 submitting the required indirect cost rate proposal to EPA, and (5) not reporting any outlays for
 indirect costs.
 Alaska Village Safe Water Program (2004) - EPA awarded $232 million to Alaska over 9 years
 for the construction of rural water and sewer systems under the program. OIG found that
 Alaska’s cash drawdowns were not in compliance with U.S. Treasury regulations regarding
 Federal funds. The State had an excessive cash balance of more than $13 million as of
 June 30, 2002.
Source: Prior EPA OIG reports




                                             5
Noncompliance with Grant Terms and Conditions

In 5 of 17 OIG products, recipients were in noncompliance with their grant terms and
conditions. This led to projects not being completed and environmental outcomes and
objectives not being attained. Examples are in Table 3:

             Table 3: Examples of Noncompliance with Grant Terms and Conditions
 University of Nevada, Reno (2005) - EPA awarded $400,000 to the Biological Resources
 Research Center at the University of Nevada to create a biological baseline for the Humboldt
 watershed, and devise bio assessment protocols for the State of Nevada that can effectively
 assess the biological conditions of perennial streams and rivers. However, the recipient did not
 submit a final report, required under the grant terms and conditions, until OIG involvement
 2½ years later. This report was not compiled or supervised by a qualified principal investigator.
 When the recipient submitted the final report, some of the required laboratory data was
 questionable and had to be re-evaluated.
 Geothermal Heat Pump Consortium (2003) - EPA awarded $712,500 to the recipient to
 increase awareness of GeoExchange (geothermal heat pump) technology through public
 outreach and information dissemination. However, the recipient did not comply with grant terms
 in several instances. This included: (1) not separately identifying and accumulating the costs for
 all direct activities, such as membership support and lobbying; (2) not accounting for program
 income generated by the activities funded by the EPA agreements; and (3) not maintaining an
 adequate labor distribution system. In addition to the financial management system deficiencies,
 the recipient also did not competitively procure contractual services or perform any of the
 required cost or pricing analyses, and did not comply with all reporting requirements.
Source: Prior EPA OIG reports


Noncompliance with Applicable Laws and Regulations

In 4 of the 17 OIG products, recipients were not in compliance with statutory laws or
regulations due to insufficient pre-award and post-award management. Examples are in
Table 4:
          Table 4: Examples of Noncompliance with Applicable Laws and Regulations
 Investigation A - EPA awarded $868,242 to develop improved indicators and innovative
 techniques for assessing and monitoring ecological integrity at the watershed level in the western
 United States. The grantee received more funds than it spent, submitted the same workplan to
 three different Federal agencies, failed to meet Federal matching requirements, and used EPA
 money to fund non-EPA grant work.
 University of Nevada, Reno (2005) - The recipient employees were paid from EPA funds for
 salaries, travel, and tuition for work on U.S. Fish and Wildlife Service grants, U.S. Department of
 Agriculture grants, and State grants. It was common for the recipient to charge one grant that
 had funding while waiting for funding from other grants.
 National Rural Water Association (1998) - The recipient received approximately $6.7 million in
 EPA funds under two major grant programs. The first was to assist rural and small wastewater
 systems in complying with Federal, State, and local regulations. The second was to provide
 training and technical expertise to rural and small wastewater systems to establish local
 groundwater protection programs. Under these grants, the recipient improperly used Federal
 grants and contracts to support an aggressive lobbying agenda. The recipient improperly used
 earmarked funds to influence the management of State associations and took actions that
 adversely affected the financial stability of some of those associations. Lastly, EPA and the
 U.S. Department of Agriculture allowed the recipient to award noncompetitive contracts to State
 associations contrary to Federal regulations.
Source: Prior EPA OIG reports and investigative documentation



                                              6

       Conflicts of Interest

       In 4 of the 17 OIG products, conflicts of interest existed between the grantee and the
       subcontracted entity under the grant. Examples are in Table 5:

                                    Table 5: Examples of Conflicts of Interest
        Investigation B - EPA awarded $3.6 million to the recipient to demonstrate potential benefits of
        the use of a fuel additive by conducting tests. However, after award, an officer of the
        organization participated in the selection, award, and administration of a non-competitive contract
        to a company in which a relative had a financial or other interest. The recipient used EPA funds
        to pay for services under the contract.
        Investigation C - EPA awarded $441,200 to the recipient to provide technical assistance and
        education to industrial companies on how to reduce carbon emissions and enhance energy
        conservation, and to further develop outreach initiatives. A conflict of interest existed because
        the Executive Director of the recipient was also the president and 100-percent owner of the
        organization that received a sole source contract from the recipient.
        Lake Wallenpaupack Watershed District (2002) - EPA awarded $2.2 million to the district to
        perform various watershed management tasks. The District awarded a contract for performing
        engineering work to the engineering firm that had prepared the original application, workplan,
        budgets, and work schedules for the EPA assistance agreement. This firm was an agent of the
        district and had advance knowledge of the agreement, intended contracts, contract amounts, and
        proposed work schedules and forecasts for subsequent years. The District’s giving the firm the
        “inside track” compromised the integrity of the contract award and violated EPA regulations.
       Source: Prior EPA OIG reports and investigative documentation


Grant Mismanagement Led to Misuse of Federal Funds

EPA’s insufficient management of earmark grants contributed to grantee mismanagement,
leading OIG to question almost $73 million in Federal funds. Specific examples included
recipients not accounting for their activities in accordance with Federal requirements, not
following Federal procurement requirements, and not performing all work agreed to under the
grant. Table 6 provides a list of dollars questioned, in descending amounts, noted in OIG audits
and investigations of earmark recipients.
                                  Table 6: List of Dollars Questioned
                                                                                Dollars
                              Report / Investigation                           Questioned
         Alaska Department of Environmental Conservation FY 2003                $33,887,200
         Alaska Department of Environmental Conservation FY 2004                 32,976,401
         Investigation B                                                          2,100,000
         MBI International                                                        1,301,365
         Geothermal Heat Pump Consortium                                          1,153,472
         Association of Metropolitan Sewerage Agencies                              681,413
         National Association of Minority Contractors - 2001                        636,069
         Investigation A                                                            230,000
         University of Nevada, Reno                                                  21,260
         Total Costs                                                            $72,987,180
       Source: Prior EPA OIG reports and investigative documentation




                                                     7
In addition to the costs questioned in the previous table, there were instances where EPA was
unable to measure the environmental benefits of the earmark projects. Table 7 provides
examples:

                        Table 7: Examples of Unclear Environmental Benefits
        National Rural Water Association (2006) - The recipient issued Federal funds to
        State associations for technical assistance to rural water utilities. Without outcome
        measures, EPA was unable to measure the benefits of more than $70 million in grants
        awarded to the recipient in the last 5 years (although we believe State associations
        provide valuable services).
        Alaska Village Safe Water Program (2005) - Three months after the grant was
        awarded, the EPA Project Officer completed a cost review and recommended that six
        projects totaling $4,759,500 be eliminated; Region 10 had to amend the grant.
        Further, the Region was unable to provide support for its review of nearly $1.6 million
        in administrative costs, as required. As noted, the Region’s insufficient review of the
        application prior to awarding the grant led us to question whether the project funded
        would achieve its objective(s) and the costs were reasonable.
       Source: Prior EPA OIG reports


Conclusion
Although EPA has taken actions to improve management of grants, additional steps are needed
to manage and oversee earmark grants. Some EPA employees and grant recipients hold
perceptions about earmarks that hinder effective management. Further, Agency policies do not
give specific steps for employees to address concerns with projects. As a result of EPA’s
insufficient management over the past 10 years, OIG has questioned nearly $73 million in
Federal funds, and EPA was unable to identify the environmental outcomes of millions of
additional Federal dollars.

Recommendations
We recommend that the Assistant Administrator for Administration and Resources Management
require the Office of Grants and Debarment to:

   1. 	 Issue a memorandum emphasizing EPA’s policies on earmark grants that identifies
        actions that program offices can take to address problems encountered in awarding and
        overseeing earmark grants.

   2.	 Incorporate the memorandum’s guidance into future training courses for staff who
       manage grants.

Agency Response and OIG Comment
The Agency concurred with our recommendations and plans to implement them by
December 29, 2006. The Agency’s complete response is in Appendix C.




                                                   8

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1            Action Official             Date      Amount      Amount

     1        8     Require the Office of Grants and Debarment to           O        Assistant Administrator for   11/01/2006
                    issue a memorandum emphasizing EPA’s policies                       Administration and
                    on earmark grants that identifies actions that                    Resources Management
                    program offices can take to address problems
                    encountered in awarding and overseeing earmark
                    grants.

     2        8     Require the Office of Grants and Debarment to           O        Assistant Administrator for   12/29/2006
                    incorporate the memorandum’s guidance into                          Administration and
                    future training courses for staff who manage                      Resources Management
                    grants.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                9

                                                                                                        Appendix A

                       Detailed List of Reports Reviewed 4


                             Report Title                                      Report No.             Date Issued
    1.   Single Audit Report for the State of Alaska Department              2006-3-00168        July 26, 2006
         of Environmental Conservation for the Year Ended
         June 30, 2004
    2.   Single Audit Report for the State of Alaska Department              2006-3-00167        July 26, 2006
         of Environmental Conservation for the Year Ended
         June 30, 2003
    3.   Congressional Request Regarding EPA Grants to the                   2006-S-00003        May 30, 2006
         National Rural Water Association
    4.   Review of Complaint on the University of Nevada, Reno,              2006-P-00008        December 28, 2005
         Regional Environmental Monitoring and Assessment
         Program Cooperative Agreement CR 826293-01
    5.   Review of State of Alaska’s Actions for the River Terrace           2005-P-00029        September 28, 2005
         Recreational Vehicle Park (RTRVP), Soldotna, Alaska
    6.   Region 10's Grant for Alaska Village Safe Water Program             2005-P-00015        June 16, 2005
         Did Not Meet EPA Guidelines
    7.   EPA Oversight of the Alaska Village Safe Water Program              2004-P-00029        September 21, 2004
         Needs Improvement
    8.   Association of Metropolitan Sewerage Agencies –                     2004-4-00038        August 31, 2004
         Costs Claimed Under EPA Cooperative Agreements
         X827577-01, X828302-01, and X829595-01
    9.   Geothermal Heat Pump Consortium, Inc. Costs Claimed                 2003-4-00120        September 30, 2003
         Under EPA Assistance Agreement Nos. X828299-01 and
         X828802-01
10.      Procurement Practices Under Grant No. X825532-01                    2002-2-00008        January 29, 2002
         Awarded to MBI International
11.      Assistance Agreement X993795-01 Awarded by EPA to                   2002-M-00007        January 18, 2002
         the Lake Wallenpaupack Watershed Management District
12.      Grant No. X824519-01 Awarded to the National                        2001-1-00203        September 27, 2001
         Association of Minority Contractors (NAMC)
13.      Audit Report on the National Association of Minority                1999-00213          August 23, 1999
         Contractors (NAMC)
14.      National Rural Water Association: Lobbying and                      1998-S-00017        March 31, 1998
         Noncompetitive Contracting under Federal Assistance
         Agreements and Contracts No. E6DWG6-04-0048­
         8400017




4
    The issues identified in each of these reports have been or are being resolved through the audit resolution process.


                                                            10

                                                                                          Appendix B

                   Issues Identified with Earmark Grants

                                                Improper                        Noncompliance
              OIG Reports/        Incomplete   Accounting/   Noncompliance      with Applicable
             Investigations          Grant      Financial    with Grant Terms      Laws and       Conflicts
               Reviewed           Workplans    Procedures     and Conditions     Regulations      of Interest
 1.   Alaska Department of                          X                X
      Environmental
      Conservation FY 2004
 2.   Alaska Department of                         X
      Environmental
      Conservation FY 2003
 3.   National Rural Water            X
      Association 2006
 4.   University of Nevada,           X                             X
      Reno 2005
 5.   Soldotna, Alaska 2005                                                           X
 6.   Alaska Village Safe Water       X
      Program 2005
 7.   Alaska Village Safe Water       X            X                                  X
      Program 2004
 8.   Association of                               X                X
      Metropolitan Sewerage
      Agencies 2004
 9.   Geothermal Heat Pump                         X                X
      Consortium 2003
10.   MBI International 2002                       X                                                  X
11.   Lake Wallenpaupack 2002                      X                                                  X
12.   National Association of                      X
      Minority Contractors 2001
13.   National Association of                                       X
      Minority Contractors 1999
14.   National Rural Water                         X                                  X
      Association 1998
15.   Investigation A                                                                 X
16.   Investigation B                                                                                 X
17.   Investigation C                              X                                                  X
        Total                         4            10               5                 4               4




                                                   11

                                                                                    Appendix C

                                Agency Response


                                       September 15, 2006


MEMORANDUM

SUBJECT:       Draft Audit Report:
               EPA’s Needs to Emphasize Management of Earmark Grants
               Assignment No. 2006-1187 (August 18, 2006)

FROM:          Luis A. Luna /s/
               Assistant Administrator

TO:            Janet Kasper
               Acting Director for Assistance Agreement Audits

Thank you for the opportunity to comment on the subject Draft Audit Report. I am pleased that
the Report recognizes the steps EPA has taken to improve its pre-award management of grants,
including Order 5700.8, EPA Policy on Assessing Capabilities of Non-Profit Applicants for
Managing Assistance Awards, and that it provides specific examples of oversight actions taken
by the Agency on earmark projects. I am also pleased with the ongoing support provided by the
Office of the Inspector General (OIG) to the Office of Grants and Debarment’s (OGD)
aggressive program to ensure compliance by earmark recipients with Federal grant requirements.

The Report finds that over the past 10 years, EPA’s management of earmark grants has been
hampered by employee misperceptions that the Agency has limited control over earmark grants
and the absence of specific remedial options in EPA policies for resolving concerns with earmark
projects.

The Report recommends that OGD be required to: 1) Issue a memorandum emphasizing EPA’s
policies on earmark grants that identifies actions that program offices can take to address
problems encountered in awarding and overseeing earmark grants; and 2) Incorporate the
memorandum’s guidance into future training courses for staff who manage grants.

As noted in the Report, EPA policy is clear that earmark grants are subject to the same level of
oversight as other types of grants. To address the employee misperceptions mentioned in the
Report, OGD will issue a short memorandum to the Agency’s Senior Resource Officials
reiterating existing policy and indicating the need for coordination, as appropriate, with the
Office of Congressional and Intergovernmental Relations and the Office of the Chief Financial
Officer on earmark issues. We do not believe a detailed memorandum outlining specific


                                                12

remedial actions is necessary, since actions for non-compliance by grant applicants or recipients
are already adequately covered in Agency grant regulations and Orders. We will also reference
the SRO memorandum in our basic Project Officer Training course, which currently directs
project officers to manage earmark grants like other assistance projects.

If you have any questions about these comments, please contact Howard Corcoran, Director,
OGD, at (202) 564-1903.

cc: 	Senior Resource Officials
     Grants Management Officers
     Junior Resource Officials
     Richard Kuhlman
     Marguerite Pridgen
     Jeanne Conklin
     Laurice Jones
     John Nolan




                                                13

                                                                                Appendix D

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Administration and Resources Management
Director, Office of Grants and Debarment
Director, Grants Administration Division
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                           14

